2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

DENNIS LEMMA, IN HIS OFFICIAL CAPACITY
AS SHERIFF OF SEMINOLE COUNTY, FLA.,
Petitioner,

v.

SEANA BARNETT,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7140 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of October, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Ch by
RENEE J. GOSS 9. Qudraw- :
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40032
